SEPTEMBER 2, 2009
  AUDIT REPORT




                                                      OFFICE OF AUDITS




THE LANDSAT PROGRAM IS NOT MEETING THE GOALS
 AND INTENT OF THE LAND REMOTE SENSING POLICY
                  ACT OF 1992




                                           OFFICE OF INSPECTOR GENERAL




                                                      National Aeronautics and
                                                          Space Administration




  REPORT NO. IG-09-021 (ASSIGNMENT NO. A-08-019-00)
Final report released by:



       signed
Debra D. Pettitt
Acting Assistant Inspector General for Auditing




Acronyms

DoD          Department of Defense
DOI          Department of the Interior
FY           Fiscal Year
GOES         Geostationary Operational Environmental Satellite
LDCM         Landsat Data Continuity Mission
LRD          Launch Readiness Date
LRSP         Landsat Remote Sensing Policy
MOU          Memorandum of Understanding
NLIP         National Land Imaging Program
NOAA         National Oceanic and Atmospheric Administration
NPOESS       National Polar-Orbiting Operational Environmental Satellite System
NSTC         National Science and Technology Council
NPR          NASA Procedural Requirements
OLI          Operational Land Imager
OSTP         Office of Science and Technology Policy
RSDO         Rapid Spacecraft Development Office
SLC          Scan Line Corrector
SMD          Science Mission Directorate
SRB          Standing Review Board
TIRS         Thermal Infrared Sensor
TM           Thematic Mapper
USGS         U.S. Geological Survey


                                                                   REPORT NO. IG-09-021
SEPTEMBER 2, 2009




                                                                                       OVERVIEW

    THE LANDSAT PROGRAM IS NOT MEETING THE GOALS AND
   INTENT OF THE LAND REMOTE SENSING POLICY ACT OF 1992

                                                                                         The Issue

   The Landsat Program comprises a series of Earth-observing satellite missions of, thus far,
   six satellites. The Program is jointly managed by NASA’s Science Mission Directorate
   (SMD) and the Department of the Interior’s U.S. Geological Survey (USGS) on the basis
   of a memorandum of understanding. The Program has used remote sensing instruments
   since 1972 to gather wide-swath images of Earth’s surface. Landsat images have
   provided over 3 decades of continuous data on changes in land cover, land use, water
   resources, and climate, worldwide, that researchers rely on to establish trends and
   prediction models. The Landsat Data Continuity Mission (LDCM) is the next satellite
   mission NASA is developing for USGS’s Land Remote Sensing Program. 1 The primary
   purpose of LDCM is to extend the land surface record by collecting data that can be
   compared to data collected by the previous Landsat satellites, including data collected via
   infrared imaging capability.

   The overall objective of our audit was to determine whether NASA’s project
   management of LDCM has adequately addressed risks associated with the acquisition
   strategy and a potential data gap between Landsats 5 and 7 and LDCM. In addition, we
   addressed the LDCM Project and the Landsat Program management’s efforts to meet the
   goals and intent of the Land Remote Sensing Policy (LRSP) Act of 1992 and also
   addressed the impact late changes to LDCM requirements have had on mission costs and
   launch schedule. (Details of the audit’s scope and methodology are in Appendix A.)

                                                                                             Results

   We found that LDCM Project management had ensured that the acquisition plan and
   subsidiary documents prepared for LDCM followed applicable interagency agreements,
   policies, regulations, and best practices. In addition, we found that LCDM Project
   management effectively identified, reported, and mitigated LDCM acquisition risks and
   had implemented an effective Earned Value Management System to improve
   management of cost and schedule risks. However, NASA’s efforts to comply with the
   goals outlined in the LRSP Act of 1992 needed improvement. Specifically, NASA and
   the Nation’s efforts to develop, launch, and operate a land remote sensing system to
   maintain long-term data continuity is in jeopardy because no Federal agency has been
   1
       USGS’s Land Remote Sensing Program includes the satellites developed under the Landsat Program and
       alternative data sources.



REPORT NO. IG-09-021
                                                                                         OVERVIEW



     given overall responsibility for the Landsat Program and LDCM baseline requirements
     changed after the contract award for the spacecraft, resulting in increased Project costs
     and possible launch schedule delays.

     Because no single Federal agency has overall responsibility for the Landsat Program,
     decisions about acquisition strategies were delayed, causing significant schedule delays,
     and thus challenging the goals and intent of the Act, which were to serve the user
     community’s interests and maintain data continuity with the Landsat system. Over the
     course of more than 6 years, several alternatives for satisfying the LDCM mission
     objectives were considered, pursued, and rejected, resulting in LDCM and the Landsat
     Program not fully meeting the goals or intent of the LRSP Act of 1992. Specifically,
     Landsats 5 and 7 have surpassed their life spans, are operating in a degraded state, and
     therefore not producing a full set of data, yet LDCM is not scheduled to launch until
     December 2012. Establishing operational program responsibility and accountability for
     the Landsat Program within a single Federal agency could help ensure Landsat data
     continuity.

     NASA removed, and now must reinstate, Landsat’s legacy thermal imaging capability.
     Congress directed NASA to reinstate the thermal imaging capability to satisfy the user
     community’s needs, congressional concerns, and the goals and intent of the LRSP Act of
     1992. The reinstatement of the capability late in LDCM Project development has
     resulted in increased Project costs estimated between $11 million and $20 million and the
     risk of a full data gap if LDCM’s launch is further delayed. Historically, NASA has
     made changes to Project requirements, resulting in cost and schedule impacts.

     Management Action

     In our July 7, 2009, draft we made five recommendations to the Associate Administrator
     for SMD. He concurred with the five recommendations.

     Recommendation 1was that the Associate Administrator coordinate with USGS to assist
     in developing a plan for continuous provision of Landsat-type data, should Landsat 7 and
     Landsat 5 become inoperable before LDCM is operational. In response, the Associate
     Administrator noted that a USGS analysis of fuel usage suggests that Landsat 7 has
     sufficient fuel to operate through 2012 or longer, that assessments of the viability of
     alternative data sources continue, and that NASA will coordinate with USGS to
     document a plan to mitigate the potential data gap by August 31, 2010.

     Our Recommendation 2 suggested that the Associate Administrator coordinate with
     USGS to assist in establishing the National Land Imaging Program, to include developing
     detailed plans for future Landsat acquisitions and agency funding responsibility for the
     program. In response, the Associate Administrator noted that NASA meets monthly with
     USGS to discuss implementation of the National Land Imaging Program and that NASA
     intends to work with OSTP and USGS to plan for a follow-on mission.




ii                                                                          REPORT NO. IG-09-021
OVERVIEW



   We suggested in Recommendation 3 that the Associate Administrator request an
   independent analysis of the impact on the spacecraft’s development cost and schedule
   due to the late change of LDCM requirements. In response, the Associate Administrator
   stated that an independent analysis of LDCM’s development cost and schedule will be
   conducted in preparation for Key Decision Point-C, scheduled for October 2009.

   Recommendation 4 was that the Associate Administrator issue guidance affirming the
   need for Space Flight Programs and Projects to quantify technical and programmatic risks
   associated with undefined system-level requirements, which can impact cost and
   schedule, prior to contract award for any major mission element. The Associate
   Administrator concurred and noted, in response, that the requirement to quantify
   technical and programmatic risks is codified in NASA Procedural Requirements
   (NPR) 7120.5D, “NASA Space Flight Program and Project Management Requirements,”
   March 6, 2007, and stated that SMD’s Management Handbook, released in February
   2008, affirms the need for all programs and projects to follow that NPR through all
   mission phases. In addition, the Associate Administrator stated that the thermal infrared
   sensor (TIRS) requirements issue was mitigated by structuring the LDCM spacecraft
   request for proposal so as not to preclude its late introduction.

   Recommendation 5 was that the Associate Administrator re-emphasize the provisions of
   NPR 7123.1A, “NASA Systems Engineering Processes and Requirements,” March 26,
   2007, which require that NASA programs and projects adequately consider stakeholder
   expectations and user community interests prior to contract award for development of any
   major mission element, revisiting these expectations and interests whenever fundamental
   changes are made to the mission implementation approach. In concurring with
   Recommendation 5, the Associate Administrator noted that SMD is committed to
   working with the stakeholder community, as detailed in the SMD Management
   Handbook, published in 2008, and consistent with NPR 7123.1A.

   We consider management’s proposed actions to be responsive. On the basis of actions
   already taken and procedures in place, the recommendations are resolved.
   Recommendations with corrective actions forthcoming will be closed upon completion
   and verification of management’s corrective action. (See Appendix B for the full text of
   management’s comments.)




REPORT NO. IG-09-021                                                                           iii
SEPTEMBER 2, 2009




                                                         CONTENTS

   INTRODUCTION
      Background _________________________________________ 1
      Objectives __________________________________________ 3

   RESULTS
      Finding A: Landsat’s Ability to Meet Congressional Goals
                  Is Hampered by a Lack of Accountability ________ 4
      Finding B: Reinstatement of Thermal Imaging Increased Costs
                  and May Further Delay Launch________________ 11

   APPENDIX A
      Scope and Methodology _______________________________ 21
      Review of Internal Controls ____________________________ 23
      Prior Coverage ______________________________________ 23

   APPENDIX B
      Management Comments ______________________________ 25

   APPENDIX C
      Report Distribution ___________________________________ 28




REPORT NO. IG-09-021
SEPTEMBER 2, 2009




                                                                                       INTRODUCTION

Background

   The Landsat Program, at Goddard Space Flight Center (Goddard), constitutes missions to
   launch Earth orbiting satellites that record land surface changes on a global scale and is
   the only program, worldwide, committed to preserving a consistent, long-term record of
   Earth’s land surface at moderate resolution. The Landsat satellites constitute the only
   satellite system designed and operated to observe the global land surface continuously at
   a moderate resolution; 2 and the data provided by the Landsat spacecraft constitute the
   longest record of Earth’s continental surfaces as seen from space.

   Landsat’s land images serve hundreds of users annually who observe and study the Earth,
   manage and utilize its natural resources, and monitor the changes brought on by natural
   processes and human activities. The instruments on the Landsat satellites have recorded
   millions of images used to monitor timber loss, estimate soil moisture and snow water
   equivalence, monitor population changes, and estimate community growth. The images
   provide information that meets the needs of a broad and diverse user community that
   includes business, science, education, government, and national security. For example,
   Federal agencies and programs that use Landsat data include the Department of Defense
   (DoD) National Geospatial-Intelligence Agency; the Department of the Interior’s
   U.S. Geological Survey (USGS), U.S. Fish and Wildlife Service, and Bureau of Land
   Management; USDA’s Forest Service, and the U.S. Climate Change Science Program as
   well as NASA’s Biodiversity and Applied Science Applications and Land-Cover and
   Land-Use Change Program.

   History of Landsat. The first Landsat satellite was launched in 1972 by NASA. NASA
   launched Landsats 2 and 3 in 1975 and 1978, respectively. NASA managed these three
   satellites as experimental missions. A second generation of Landsat satellites was
   developed and launched as Landsats 4 and 5 in 1982 and 1984, respectively. From 1979
   until 1984, the Department of Commerce’s National Oceanic and Atmospheric
   Administration (NOAA) managed all Landsat satellite operations (Landsats 2 through 5).
   Public Law 98-365, the “Land Remote Sensing Commercialization Act of 1984,”
   directed Commerce/NOAA to delegate management of Landsats 4 and 5 and their data
   distribution to the private sector. As a result, the Earth Observation Satellite Company, a
   consortium of private companies, was chosen to operate those satellites as well as build
   and launch Landsats 6 and 7. Landsat 6, the only satellite not built and launched under
   NASA management, failed at launch.

   2
       Remotely sensed images are numeric representations of the sampled land surface made up of individual
       picture elements, or pixels. Each pixel represents a square area on an image that is a measure of the
       sensor’s resolution. The finer the spatial resolution, the smaller the objects that are detectable. Moderate
       resolution sensors are useful in seasonal and time series applications at regional or global scales, whereas
       fine resolution studies are more useful in local environmental applications.



REPORT NO. IG-09-021                                                                                                  1
                                                                                                INTRODUCTION



               Figure 1. Illustrative Timeline of Landsat Satellites 1 through 7.




    Source: NASA Landsat Program Web site.

    Landsat 7 was mandated in 1992 by Public Law 102-555, “The Land Remote Sensing
    Policy Act” (LRSP Act of 1992). The Act identified three goals for the Landsat Program:

       (1) encourage the development, launch, and operation of a land remote sensing system that
           adequately serves the civilian, national security, commercial, and foreign policy interests
           of the United States;
       (2) encourage the development, launch, and operation of a land remote sensing system that
           maintains data continuity with the Landsat system; and
       (3) incorporate system enhancements, including any such enhancements developed under the
           technology demonstration program under section 303, which may potentially yield a
           system that is less expensive to build and operate, and more responsive to data users, than
           is the Landsat system projected to be in operation through the year 2000

    In 1999, the initial acquisition planning began for Landsat 7’s successor, the Landsat
    Data Continuity Mission (LDCM).

    Program Responsibilities and Accountabilities for LDCM. LDCM is being jointly
    developed by NASA’s Science Mission Directorate (SMD) and USGS for USGS’s Land
    Remote Sensing Program. NASA and USGS established a memorandum of
    understanding (MOU) for collaborative programs in January 2000. The MOU sets forth
    the general terms and conditions under which NASA and USGS will coordinate and
    cooperate in implementing research and technology development activities. The MOU
    states that there shall be a separate Implementing Agreement for each project to define
    the specific interagency relationships and responsibilities with regard to the activity. For
    the LDCM Project, NASA is responsible for developing and launching the satellite, and
    USGS is responsible for mission operations, data collection and processing, and
    distributing land surface data to users.




2                                                                                     REPORT NO. IG-09-021
INTRODUCTION



   However, neither NASA nor USGS has program-level responsibility for the Landsat
   Program. The agencies receive LDCM acquisition strategy directions through the Office
   of Science and Technology Policy3 (OSTP) and congressional mandates.

   The Project’s pre-formulation phase of the acquisition life cycle began in 1999. By 2009,
   the LDCM Project had progressed to the formulation phase. LDCM’s original
   acquisition schedule was driven by an aggressive launch readiness date (LRD) of July
   2011 because time constraints were imposed to have the Project develop and launch a
   successor before Landsats 5 and 7 failed. However, after independent reviews identified
   high levels of risk as a result of the aggressiveness of LDCM’s acquisition schedule,
   NASA rescheduled the LRD to December 2012 to reduce development risks. In fiscal
   years (FYs) 2007 and 2008, NASA awarded contracts for the Operational Land Imager
   (OLI), spacecraft, and Mission Operations Element (in coordination with USGS), and
   conducted the Mission Confirmation Review.

   The total NASA New Obligation Authority for development and operations of LDCM
   was $624 million. For FY 2008, Congress appropriated $160.2 million for NASA’s
   portion of work on LDCM. In NASA’s FY 2009 budget request, NASA projected future
   budget needs of $139.4 million and $127.1 million for LDCM for FYs 2009 and 2010,
   respectively.

Objectives

   Our overall objective was to determine whether NASA’s project management of LDCM
   had adequately addressed the risks associated with the acquisition strategy and the
   potential data gap between Landsats 5 and 7 and LDCM. Specifically, we determined
   whether

         •   the acquisition plan and subsidiary documents follow applicable interagency
             agreements, policies, regulations, and best practices;
         •   management has effectively identified, reported, and mitigated LDCM acquisition
             risks, to include implementation of an effective Earned Value Management
             System to improve management of cost and schedule risks; and
         •   LDCM will meet Congress’s goals, as set forth in the Land Remote Sensing
             Policy Act of 1992, and the NASA Authorization Act of 2008.

   See Appendix A for details of the review’s scope and methodology, our review of
   internal controls, and a list of prior coverage.




   3
       Congress established OSTP in 1976 with a broad mandate to advise the President and the Executive
       Office of the President on the effects of science and technology on domestic and international affairs and
       to lead interagency efforts to develop and implement sound science and technology policies and budgets.



REPORT NO. IG-09-021                                                                                                3
                                                                                        RESULTS




                                         FINDING A: LANDSAT’S ABILITY TO
                                           MEET CONGRESSIONAL GOALS IS
                                                  HAMPERED BY A LACK OF
                                                        ACCOUNTABILITY

           The Land Remote Sensing Policy (LRSP) Act of 1992 mandates expedited
           procurement procedures to ensure Landsat data continuity. However, NASA spent
           more than 6 years in LDCM’s pre-formulation phase (concept studies and acquisition
           planning). The delays in acquiring and launching the next Landsat satellite resulted
           primarily because no single Federal agency had operational program responsibility
           or accountability for the Landsat Program or for Landsat data continuity. As a result,
           the Landsat Program is not meeting the goals or intent of the LRSP Act of 1992.
           Specifically, Landsat 7—the only operational on-orbit source of complete global
           Landsat imagery—is operating in a degraded state and is likely to fail prior to
           LDCM reaching orbit, ending over 3 decades of Landsat data continuity.

Landsat Management Responsibility and Acquisition Process
  Changed Periodically

    Since the Program’s inception, responsibility for acquisition, launch, and operations of
    Landsat satellites has been divided and moved among several Federal agencies and
    private industry (see Figure 2). The LRSP Act of 1992, section 401, directed NASA and
    DoD to develop and USGS and NOAA to operate Landsat 7. In addition to Landsat 7,
    the Act directed the agencies to assess various system development and management
    options for a satellite system to succeed Landsat 7. The 1992 Act also expressed a
    preference for “private-sector funding and management.” In 1993, the National Science
    and Technology Council (NSTC) reassessed the joint NASA/DoD Landsat 7
    development strategy in an attempt to minimize the potential for a data gap if Landsats 4
    and 5 ceased to operate and to reduce costs and development risks. In May 1994, NSTC
    mandated the transfer of all Landsat 7 development responsibilities to NASA via
    Presidential Decision Directive NSTC-3, “Landsat Remote Sensing Strategy.” The
    Directive also mandated that USGS and NOAA were responsible for satellite operations
    and data management. Landsat 7 launched in April 1999. In that same year, the initial
    acquisition planning began for Landsat 7’s successor, LDCM.




4                                                                         REPORT NO. IG-09-021
RESULTS



            Figure 2: Generalized Timeline Schematic of Landsat Responsibility




   Source: USGS Report to the Committee on Earth Observation Satellites’ Working Group on Collaboration
   & Validation (February 26, 2008).

   On October 16, 2000, an amendment to the May 1994 Presidential Decision Directive
   transferred responsibility for Landsat operations and data management from NOAA
   solely to USGS. Thus, jointly, NASA, with development responsibilities, and USGS,
   with operations and data management responsibilities, began exploring various data
   acquisition strategies for Landsat 7’s successor. However, neither NASA nor USGS was
   assigned Landsat Program-level responsibility. The agencies received LDCM acquisition
   strategy directions through OSTP and congressional mandates. The original LDCM
   acquisition plans called for NASA to purchase, from a commercially owned and operated
   satellite system, data that met LDCM specifications.

LDCM Formulation Phase Delayed by Acquisition Strategy
  Indecision

   LDCM Project management spent more than 6 years (FYs 2000-2006) and $54.2 million
   in the pre-formulation phase (concept studies and acquisition planning) of development.
   Given the 5-year projected life span of Landsat 7 and equivalent development time for
   LDCM, in order to prevent a potential gap in data continuity, the acquisition process
   should have commenced immediately after the launch of Landsat 7 in 1999. However,
   delays resulted as several alternatives for satisfying the LDCM mission objectives were
   considered, pursued, and rejected.

   In FY 2000, NASA, in cooperation with USGS, began formulating LDCM as a
   commercial data buy from a vendor who would build, launch, and operate the satellites
   and charge users for the data. Within that context, the Government acquisition strategy
   of partnering with private industry was characterized by having both partners provide
   consideration for and receive benefit from the system once data was acquired. During
   formulation of the data buy procurement, NASA awarded two study contracts to develop
   preliminary designs for a system that would provide continuity of Landsat data.
   Following the delivery of the two preliminary designs, NASA requested proposals for
   implementation of the system and completion of the data buy procurement. Ultimately,
   however, NASA received only one proposal. After the proposal evaluation process was
   completed, the selection official, NASA’s Associate Administrator for Earth Science,


REPORT NO. IG-09-021                                                                                      5
                                                                                                          RESULTS



    determined that acceptance of the proposal was not in the best interests of the
    Government, due to a lack of competition, and decided not to complete the data buy
    procurement.

    Following the non-completion of the data buy procurement, in 2003, OSTP chartered an
    Interagency Working Group, chaired by the National Security Council and NASA, to
    study an implementation strategy for the Landsat Program. After a 9-month study, the
    Interagency Working Group recommended that land surface data be obtained by
    developing instruments for use aboard the National Polar-Orbiting Operational
    Environmental Satellite System (NPOESS). However, further technical evaluation
    determined that Landsat’s instrumentation was not compatible with the NPOESS satellite
    configuration, and in December 2005, consideration of incorporating Landsat capabilities
    on NPOESS was discontinued. OSTP then directed NASA to pursue an independent
    satellite mission approach for Landsat. In early 2006, NASA began re-formulation of
    LDCM and notified industry that mission development would be openly competed.
    Following an extensive re-formulation of the mission during 2006 and early 2007, NASA
    initiated open competitions for the separate elements (spacecraft, instrumentation, launch
    vehicle, ground system) of LDCM.

    In 2007, after more than 6 years of exploring and evaluating various strategies to meet
    Landsat data continuity requirements, OSTP directed NASA and USGS to use the same
    acquisition strategy for LDCM that was successfully used to develop and launch
    Landsat 7, wherein NASA builds and launches the satellite and USGS operates it, and
    mandated that the Final Implementation Agreement be commensurate with that strategy.
    Thus, the NASA/USGS Final Implementation Agreement for LDCM was not established
    until April 2007, more than 8 years after the launch of Landsat 7. In July 2007, in
    compliance with the OSTP mandate, NASA commenced the acquisition process with the
    procurement of LDCM’s primary instrument, the Operational Land Imager (OLI).

    Initial Acquisition Schedule Driven by Aggressive Launch Readiness Date. LDCM’s
    original acquisition schedule was driven by an aggressive LRD of July 2011 with the goal
    of developing and launching a successor before Landsats 5 and 7 failed. During the Key
    Decision Point reviews to transition into Phase B of the Project Life Cycle, 4 LDCM’s
    Standing Review Board (SRB) 5 determined that the LRD requirement of July 2011 drove
    the Project to baseline an extremely aggressive, high-risk schedule with no schedule
    reserve at the mission level. At the outcome of the Key Decision Point review, NASA
    estimated a more likely development schedule to launch, and delayed the LRD to
    December 2012. In September 2008, the results of the SRB’s Independent Cost Review
    indicated that delaying the LRD from July 2011 to December 2012 increases the
    4
        During Phase B, the project team completes its preliminary design and technology development, to
        include baselining the system-level requirements and developing the subsystem and lower-level technical
        requirements.
    5
        The SRB’s role is advisory to the program/project and the convening authorities and does not have
        authority over any program/project content. Its review provides expert assessment of the technical and
        programmatic approach, risk posture, and progress against the program/project baseline. When
        appropriate, it may offer recommendations to improve performance and/or reduce risk.



6                                                                                        REPORT NO. IG-09-021
RESULTS



   Project’s life cycle cost estimate by $90.5 million (from $614.7 million to
   $705.2 million), but this LRD correlates with a 70 percent confidence level for achieving
   the launch date as the Project enters Phase B of the life cycle.

   However, the Landsat Science Team, 6 in January 2008 had concluded that LDCM must
   be operational by March 2012 to observe the Northern Hemisphere growing season. The
   LRD of December 2012 conflicts with this user requirement and is far beyond the
   expected life span of Landsat 7. The latest technical assessment of Landsat 7’s projected
   life expectancy approximates a 50 percent to 70 percent chance of the satellite
   experiencing a full system failure by December 2012. In the “NASA Report to Congress
   Regarding Landsat Data Continuity Mission (LDCM) Data Continuity,” April 2008,
   NASA management states, “[b]oth Landsat 7 and Landsat 5 are presently experiencing
   technical problems and are expected to run out of fuel in late 2010. 7 Combine this with
   the most expedient development for LDCM and the outcome is that a Landsat data gap is
   inevitable.”

No Mandated Responsibility or Accountability for Landsat Data
  Continuity

   The LRSP Act of 1992 mandates continuity in Landsat data collection—maintaining
   consistency with earlier Landsat systems in terms of spectral and spatial coverage. The
   Act states that continuous collection and utilization of land remote sensing data from
   space are of major benefit in studying and understanding human impacts on the global
   environment, in managing Earth’s natural resources, in carrying out national security
   functions, and in planning and conducting many other activities of scientific, economic,
   and social importance. The Act further states that given the importance of the Landsat
   program to the United States, urgent actions, including expedited procurement
   procedures, are required to ensure data continuity.

   The Act specifically directs NASA and USGS to assess various system development and
   management options for a satellite system to succeed Landsat 7. In addition to
   maintaining data continuity, the LRSP Act of 1992 mandates that the Landsat system
   should serve the civilian, national security, commercial, and foreign policy interests of
   the United States and incorporate system enhancements that may potentially yield a
   system that is less expensive to build and operates more responsively to user requests.
   One of the key objectives of LDCM is to make all Landsat-type data available at an
   affordable cost to ensure that the different sectors of the user community can utilize the
   data for high-quality research applications. However, in the 35-year history of the
   6
       The Landsat Science Team comprises scientists and engineers selected to investigate and advise USGS
       and NASA on issues critical to the success of LDCM. The team combines USGS-based leadership,
       USGS and NASA agency scientists, and a group of external scientists and application specialists. The
       external members consist of principle investigators representing the larger Landsat science and
       applications community. The most common application appears to be estimating annual agricultural
       production and national and international forest area.
   7
       In a subsequent report to Congress, “Report on Landsat Thermal Infrared Data Continuity,” June 2009,
       NASA management states that because of fuel limitations, Landsat 7 may cease operating in 2013.



REPORT NO. IG-09-021                                                                                          7
                                                                                            RESULTS



    Landsat Program, no Federal agency has been directed or has chosen to adopt the
    operational program responsibility for Landsat data continuity and, thus, serve the
    Nation’s land imaging needs.

    The delays in acquiring and launching LDCM were primarily the result of no single
    Federal agency taking responsibility for Landsat data continuity. The indecision about
    LDCM’s acquisition strategy was ultimately caused by a lack of ownership of, and
    dedication to, the continuation of Landsat missions. Although NSTC provided guidance
    for the continuance of Landsat 7 operations in its 1994 Presidential Decision Directive,
    NSTC divides responsibilities between NASA and USGS and does not clearly assign the
    program and associated funding to either agency. While the LRSP Act of 1992 states in
    its introduction that the purpose of the Act is “[t]o enable the United States to maintain its
    leadership in land remote sensing by providing data continuity for the Landsat program,
    to establish a new national land remote sensing policy, and for other purposes,” no single
    Agency has been mandated responsibility or accountability for ensuring that the United
    States maintains that leadership role or that the Nation’s future land imaging needs are
    met.

Landsat Spacecraft Degradation and Ensuing Data Gap Ends
  Three Decades of Data Continuity

    The Landsat Program is not meeting the goals or intent of the LRSP Act of 1992, as
    Landsat 7, the only present on-orbit source of complete global Landsat imagery, is
    operating in a degraded state. Specifically, on May 31, 2003, Landsat 7’s scan line
    corrector (SLC), a subsystem of Landsat 7’s primary instrument, the enhanced thematic
    mapper plus (ETM+), underwent a permanent failure, which caused a 22 percent loss of
    data on all future images from this system. May 2003 marked the end of more than
    30 years of complete Landsat global coverage. Now, to create a full image, older data
    has to be overlapped onto newer imagery. Many users find this data unacceptable and
    have pursued other data sources, to include India’s ResourceSat and China-Brazil Earth
    Resources Satellite; however, these sources are not capable of meeting all user needs.
    Landsat 5, which is more than 20 years beyond its design life and limited by subsystem
    degradation, has not been capable of providing complete global coverage since 1985 and
    cannot fill the data gap caused by the SLC failure. Further, Landsat 7 is likely to fail
    prior to LDCM reaching orbit.

    NASA and USGS recognized the likelihood that both Landsat 5 and Landsat 7 will
    become inoperable before LDCM reaches orbit, resulting in a 100 percent data gap.
    Consequently, they formed the Landsat Data Gap Study Team to evaluate potential
    sources of data to fill the ensuing full data gap. The results of their evaluation indicate
    there is no replacement for all of the data that Landsat satellites provide. Other sources
    do not provide the inventory of global land surface over time at a resolution allowing
    human versus natural causes of change to be differentiated or global land observations on
    a seasonal basis. The Landsat Program is the only national or international program
    committed to preserving a consistent, long-term record of Earth’s land surface at this


8                                                                            REPORT NO. IG-09-021
RESULTS



   resolution. Specifically, no other satellite or combination of satellites can provide the
   same baseline specifications (spectral bands, radiometry, spatial resolution, geographic
   registration, band-band registration, and geographic coverage) that Landsat provides.
   Our interviews with NASA users of Landsat data confirmed that, while several systems
   could meet special regional acquisition needs during some or all of the potential data gap
   period, no other satellite system is capable of providing annual global coverage. Thus,
   the use of other systems will only minimize the impact of the data gap, not close it.

   Although the Landsat Data Gap Study Team has determined that at present “there is no
   substitute for Landsat,” the team continues to conduct assessments of the viability of
   alternative data sources should Landsat 7 or Landsat 5 fail before LDCM is operational.

Establishing a Long-Term Program to Meet Land Imaging Needs

   The FY 2009 Omnibus Appropriations Act directed NASA “to develop, in cooperation
   with OSTP and USGS, a plan for a follow-on mission to LDCM consistent with the
   recommendations of the [NSTC] report, A Plan for a U.S. National Land Imaging
   Program.” 8 This report calls for a continued U.S. commitment to moderate-resolution
   land imagery, recommends that the United States maintain a core operational capability
   for land imagery while supplementing its data with similar data from partners, and
   designates the Department of the Interior (DOI) as the host of the program. NSTC
   concluded that establishing the National Land Imaging Program (NLIP) would ensure a
   consistent planning and budgeting process for future land imaging missions and would
   “transition the Landsat program from a series of independently planned missions to a
   sustained operational program.” The report also stated that NLIP would provide a
   mechanism to assess the land imagery needs of Federal agencies, state and local land
   management officials, scientists, and geographic researchers, and to translate those needs
   into the technical capabilities of future satellites.
   In the judgment of NSTC and the stakeholder agencies it represents, Landsat operational
   program responsibility most appropriately fits within the mandate and objectives of
   USGS/DOI; and NASA, which has historically maintained a research, development, and
   applied science role in land remote sensing, should maintain that role. For example, a
   similar cross-agency cooperative agreement exists between NASA and the Department of
   Commerce for the execution of the Geostationary Operational Environmental
   Satellite (GOES) Program. 9 GOES operational program responsibility and funding
   authority falls under the Department of Commerce’s NOAA. On June 15, 2007, NOAA
   and NASA signed a memorandum of understanding such that NOAA’s GOES-R
   Program Office is fully responsible for all aspects of program management: acquisition
   strategy, funding, program-level systems engineering and integration, and scientific,

   8
       Future of Land Imaging Interagency Working Group, Executive Office of the President, NSTC, A Plan
       for a U.S. National Land Imaging Program (Washington, D.C.: August 2007).
   9
       The GOES Program develops and provides satellites that operate at a fixed position above the Earth’s
        surface to collect and transmit environmental data used to forecast the weather. GOES-R is the next
        satellite in the series and scheduled for launch in FY 2015.



REPORT NO. IG-09-021                                                                                          9
                                                                                        RESULTS



     technical, and administrative support, while NASA’s primary responsibility is to manage
     the development of the Flight Project, which includes spacecraft, launch services,
     instruments, and satellite integration. NOAA fully reimburses NASA for all resources
     used to support the GOES program. In its report, “Geostationary Operational
     Environmental Satellites: Acquisition Is Under Way, but Improvements Needed in
     Management and Oversight,” April 2, 2009, the Government Accountability Office
     (GAO) noted that NASA and NOAA have made progress on the Program. DOI and
     NASA could benefit from the lessons learned in developing and executing the GOES
     Program and apply those lessons to NLIP implementation.

Recommendations, Management’s Response, and Evaluation of
  Management’s Response

Recommendation 1. The Associate Administrator for SMD should develop a plan for
continuous provision of Landsat-type data, should Landsat 7 and Landsat 5 become
inoperable before LDCM is operational.
     Management’s Response. The Associate Administrator for SMD concurred with the
     recommendation, noting that, on the basis of USGS’s further analysis of fuel usage for
     both Landsats 5 and 7, NASA officials believe that Landsat 7 has sufficient fuel to
     operate through 2012 and perhaps longer. He also noted that the Landsat Data Gap Study
     Team continues to conduct assessments of the viability of alternative data sources should
     Landsat 5 or 7 fail before LDCM data is available, and that NASA will coordinate with
     USGS to document a formal plan for the partial mitigation of the potential data gap by
     August 31, 2010.
     Evaluation of Management’s Response. We consider management’s proposed action
     to be responsive. The recommendation is resolved and will be closed upon completion
     and verification of management’s corrective action.
Recommendation 2. The Associate Administrator for SMD should assist in establishing the
National Land Imaging Program, to include developing detailed plans for future Landsat
acquisitions and agency funding responsibility for the program.
     Management’s Response. The Associate Administrator for SMD concurred with this
     recommendation. He added that NASA meets monthly with USGS to discuss
     implementation of the National Land Imaging Program, although full implementation by
     USGS is on hold pending legislation authorizing the program and appropriation of funds.
     Also, NASA intends to work with OSTP and USGS to plan for a follow-on mission to
     LDCM in time to inform the President’s FY 2012 Budget Request, which is due to the
     Office of Management and Budget by September 1, 2010.
     Evaluation of Management’s Response. Management’s proposed action is responsive.
     Based on actions taken and procedures in place, we have closed the recommendation.




10                                                                        REPORT NO. IG-09-021
RESULTS




                                              FINDING B: REINSTATEMENT OF
                                               THERMAL IMAGING INCREASED
                                                   COSTS AND MAY FURTHER
                                                            DELAY LAUNCH

          On March 11, 2009, Congress directed NASA to reinstate Landsat’s legacy thermal
          infrared imaging capability. In 2002, NASA management removed the thermal
          infrared imaging capability from the LDCM requirements baseline, disregarding the
          Landsat data continuity goals of the LRSP Act of 1992 and not adequately
          considering the user community’s growing reliance on thermal imaging. LDCM
          Project management estimates that reinstating the capability this late in the Project’s
          life cycle will result in spacecraft modification costs of $11 million to $20 million,
          and could cause further delays to an already significantly delayed mission.

Importance of Thermal Imaging Increased for the Landsat Data
  User Community

   The Land Remote Sensing Policy Act of 1992 directs Landsat Program management to
   “maintain data continuity.” The Act defines “data continuity” as “the continued
   acquisition and availability of unenhanced data which are, from the point of view of the
   user, sufficiently consistent (in terms of acquisition geometry, coverage characteristics,
   and spectral characteristics) with previous Landsat data to allow comparisons for global
   and regional change detection and characterization.” Spectral characteristics that are
   sufficiently consistent with previous Landsat data would include thermal spectral band
   imaging.

   Since 1972, Landsat satellites have carried sensors that collect wide field-of-view images
   of the Earth’s surface. Landsats 1 through 3 each carried both a Remote Beam Vidicon
   camera and a multispectral scanner subsystem instrument. Landsat 3, launched in 1978,
   marked the beginning of thermal image acquisitions on Landsat missions, and thermal
   imaging has been a function of Landsat satellites since then. One of the technical
   advancements made in 1982, for Landsat 4 and follow-on Landsat satellites, was the
   addition of the Thematic Mapper (TM) sensor. Analysts found that TM data significantly
   improved capabilities for recognizing and mapping land cover types and for detecting
   land cover change relative to multispectral scanner subsystem data. The TM sensor
   collected data for seven spectral bands, compared to the four multispectral scanner
   subsystem bands of Landsats 1 through 3. In addition, the TM sensor provided an
   improved spatial resolution relative to the multispectral scanner subsystem instruments,
   to include image data for a thermal spectral band sensitive to emitted radiation. The user
   community used images from the TM sensor thermal band to map and monitor the
   variation of surface temperatures across landscapes.




REPORT NO. IG-09-021                                                                            11
                                                                                                            RESULTS



     The user community’s growing preference for TM data resulted in the next two Landsat
     satellites—Landsat 6 and Landsat 7—being built to carry single sensors that were close
     derivatives of the TM design. The Landsat 6 sensor, the Enhanced Thematic Mapper
     (ETM), was enhanced by the addition of a panchromatic band sensitive to all or most
     light in the visible spectrum and improved spatial resolution. Landsat 7 carries the
     Enhanced Thematic Mapper – Plus (ETM+) sensor; the “plus” refers to an improvement
     in the ground resolution of the thermal spectral band.

     During FYs 2000 through 2007, while the implementation strategy for Landsat data
     continuity was being formulated, the Landsat 5 TM and Landsat 7 ETM+ sensors
     continued to provide users thermal spectral images, along with the data from the other
     spectral bands, and user community interest in thermal data increased. The increased use
     of thermal imagery was driven by multiple factors; specifically, the lowering of costs for
     Landsat images, removal of copyright restrictions on Landsat data, successful research in
     developing dependable processes for computing “evapotranspiration” 10 from satellite
     images, and the need for evapotranspiration data by state water resources entities such as
     the Idaho Department of Water Resources.

     Western state and local governments found the high-resolution thermal imagery provided
     by Landsat 7 to be particularly useful in the early detection of water stress in crops and in
     tracking sediment and chemical transport in lakes and coastal waters. As coverage and
     estimates of water consumption became more reliable, local governments in many arid
     regions came to rely heavily on the thermal images and began to use thermal image data
     to improve their management of over-subscribed water resources.

     The importance of thermal imaging to the user community was established and had been
     addressed in earlier Landsat satellites. NASA Procedural Requirements (NPR) 7123.1A,
     “NASA Systems Engineering Processes and Requirements,” March 26, 2007, requires
     that NASA programs and projects analyze stakeholders (which includes relevant user
     communities) expectations using a process to establish a set of measures by which overall
     system or product effectiveness will be judged and customer satisfaction will be
     determined. Once established, the project is required to obtain commitments from
     stakeholders that the resultant set measures is acceptable. The process is then used to
     transform the baselined stakeholder expectations into unique, quantitative, and
     measurable technical requirements.

NASA Removed Thermal Imaging Capability from LDCM
 Requirements

     In 2002, NASA management removed the thermal imaging capability from the LDCM
     requirements baseline on the basis of contractors’ recommendations even though Project
     management recommended retaining the capability. However, in removing the thermal
     10
          USGS defines evapotranspiration as the water lost to the atmosphere from the ground surface,
          evaporation from the capillary fringe of the groundwater table, and the transpiration of groundwater by
          plants whose roots tap the capillary fringe of the groundwater table.



12                                                                                         REPORT NO. IG-09-021
RESULTS



   imaging capability, NASA management disregarded the Landsat data continuity goals of
   the LRSP Act of 1992 and the increasing reliance on the data by the user community.
   The thermal infrared spectral band is a legacy capability present on the last four
   successfully launched Landsat missions (Landsats 3, 4, 5, and 7), providing data dating
   back to 1978. Sufficient consistency with the data archive provided by previous Landsats
   allows effective monitoring of land and water usage and consumption trends, tracking of
   sediment and chemical transport, and research in “global and regional change detection.”

   Contractors Recommend Exclusion of Thermal Capability. In FY 2000, a year after
   the launch of Landsat 7, NASA, in cooperation with USGS/DOI, began formulation of
   LDCM as a commercial data buy. Early in the formulation process, NASA, in an attempt
   to commercialize Landsat development, awarded two study contracts to develop
   preliminary designs for a system that would provide data continuity. The contractors, as
   potential commercial partners with NASA, considered and analyzed various designs and
   took different approaches to a thermal instrument.

   The first contractor proposed a cryo-cooler system, citing excellent performance but
   significant impact to the spacecraft’s mass, power, propulsion, and possibly reflective
   instrument performance. The second contractor proposed a microbolometer-based
   system, citing anticipated adequate performance but with newer technology that was not
   flight proven in Earth remote sensing in a system whose 5-year reliability was unproven,
   and recommended that the capability only be included as a technology demonstration.
   Both contractors recommended that NASA not include the thermal capability unless
   classified as experimental (technology demonstration) with the admonition of “best
   performance within cost constraints.”

   The contractors were concerned with levying firm requirements on a microbolometer-
   based instrument because of its technological immaturity. However, reverting to mature
   technologies (active cryo-cooling) would have required significant re-baselining of the
   spacecraft architecture. Both study contractors indicated that the thermal imaging
   capability was not “commercially viable” and that the return on investment for thermal
   image data, based on their assessment of the limited number of users, was far too low for
   consideration. Because neither contractor had determined a customer base supporting
   commercial applications, both recommended NASA not include the thermal capability
   with current LDCM requirements.

   LDCM Project Management Recommends Inclusion of Thermal Capability. In
   August 2002, LDCM Project management reported the results of these studies to the
   Associate Administrator for Earth Science 11 and recommended inclusion of the thermal
   capability on LDCM “as a technology demonstration with relaxed lifetime requirements.”
   Project management stated that the “microbolometer-based instrument is the only viable
   LDCM approach” and “should be flight proven for Earth remote sensing missions.”
   Project management also determined that the microbolometer approach had some flight

   11
        The Science Mission Directorate was established in 2004 from the merger of the former Office of Space
        Science and Office of Earth Science.



REPORT NO. IG-09-021                                                                                            13
                                                                                                      RESULTS



     heritage within NASA’s Thermal Emission System aboard the Mars Odyssey mission
     spacecraft and reasoned that it was technically feasible with the current technology.
     LDCM Project management reported that the mass, power, schedule, and cost of the
     cryo-cooled instrument would result in significant impacts to mission and architectures.
     These findings were validated in a study by Goddard’s Instrument Synthesis and Analysis
     Laboratory.

     Despite LDCM Project management’s analyses and recommendations, the Associate
     Administrator for Earth Science removed the thermal imaging capability from the LDCM
     requirements baseline on the basis of the assessments provided by the potential
     commercial partners. As Project formulation continued, further implementation
     approaches were explored for LDCM, including incorporating Landsat capabilities on
     NPOESS. The thermal imaging capability remained unsupported and unfunded. Since
     the development of NASA’s FY 2002 budget, neither budget requests nor its
     appropriated budgets included funding for a thermal capability for LDCM. It was not
     again addressed until the FY 2007 budget, but “due to the expected high cost and low
     priority of the thermal capability relative to the other Landsat instrument spectral
     requirements,” 12 it was not included. Development of the FY 2008 budget also did not
     include funding for the thermal capability “due to the magnitude of the likely schedule
     impact that was indicated by the 2007 thermal development studies.” 13

System-Level Requirements Change to Reinstate Thermal
  Capability Late in Acquisition Life Cycle

     In 2007, congressional concerns “that the LDCM mission does not include a thermal
     infrared sensor to provide important data for surface and ground water information” 14
     prompted NASA to initiate technical and programmatic studies on developing a thermal
     imaging capability. NASA’s analyses indicated that the schedule for development of a
     thermal instrument would drive the overall LDCM mission schedule, delay the launch
     date significantly, and increase the potential Landsat data gap. Development of a thermal
     capability was estimated to take 48 months, plus an additional 9 months for satellite
     integration and testing.

     In July 2007, NASA awarded the contract for LDCM’s primary instrument, the
     Operational Land Imager (OLI), to Ball Aerospace and Technologies Corporation.
     During the preliminary phase of the OLI design, the LDCM Project office began
     procurement of the LDCM launch vehicle through the NASA Kennedy Space Center’s
     Launch Services Program.



     12
          “NASA Report to Congress Regarding LDCM Continuity,” April 2008.
     13
          “NASA Report to Congress Regarding LDCM Continuity,” April 2008.
     14
          FY 2008 Departments of Commerce and Justice, Science, and Related Agencies Appropriations Bill;
          Calendar No. 259, 110th Congress Report to Senate (June 29, 2007).



14                                                                                    REPORT NO. IG-09-021
RESULTS



   In May 2008, during the LDCM Project’s life cycle reviews to transition into Phase B,
   the LDCM SRB expressed concerns with the possibility that, because the Project did not
   have system-level Spacecraft and Mission Operations requirements fully defined or
   signed by NASA and USGS, system-level requirements could change, resulting in
   technical, cost, and schedule impacts to mission execution. In addition, the SRB
   expressed concerns that the Project had a lingering requirement for the spacecraft to
   accommodate TIRS and continued to conduct feasibility studies to include the instrument
   on LDCM. The SRB stated, “continued requests for technical, cost, and schedule plans
   and estimates for adding the TIRS instrument distracts the Project leadership and
   engineering personnel from focusing on implementing the current baseline mission,
   which adds risk.”

   LDCM Project management had recognized the requirement for spectral data continuity
   and included it in the LDCM Technical, Schedule, and Cost Control Plan (May 5, 2008),
   mission requirements for LDCM. Specifically, both the Plan and the LRSP Act of 1992
   state that the data acquired by LDCM shall be sufficiently consistent with that provided
   by Landsat 7 to allow comparisons for global and regional change detection and
   characterization. The NASA Authorization Act of 2008 (dated May 15, 2008) directed
   NASA to incorporate the thermal imaging capability on LDCM and provide the plan to
   Congress not later than 60 days after the date of enactment of the Act. Specifically,
   Section 205, “Landsat Thermal Infrared Data Continuity,” states:

              In view of the importance of Landsat thermal infrared data for both scientific research
              and water management applications, the Administrator shall prepare a plan for
              ensuring the continuity of Landsat thermal infrared data or its equivalent, including
              allocation of costs and responsibility for the collection and distribution of the data,
              and a budget plan. As part of the plan, the Administrator shall provide an option for
              developing a thermal infrared sensor at minimum cost to be flown on the Landsat
              Data Continuity Mission with minimum delay to the schedule of the Landsat Data
              Continuity Mission.

   Though TIRS development was under way, as of June 1, 2009, NASA had not provided a
   formal plan to Congress in response to the Act. However, the FY 2009 Omnibus
   Appropriations (PL 111-8) provided NASA $10 million to initiate development of TIRS
   and directed NASA to identify the earliest and least expensive development approach and
   flight opportunity for TIRS. In addition, NASA’s American Recovery and Reinvestment
   Act program final plans (dated May 15, 2009) include funding for a Critical Design
   Review 15 of TIRS. As of June 10, 2009, a specific dollar amount had not been identified
   because the Agency is awaiting Congress’ approval of its Operating Plan.




   15
        The Critical Design Review demonstrates that the maturity of the TIRS design is appropriate to support
        proceeding with full-scale fabrication, assembly, integration, and test.



REPORT NO. IG-09-021                                                                                             15
                                                                                                      RESULTS



Spacecraft Costs Increased as a Result of Late Changes to
  Requirements

     In testimony before the Subcommittee on Space and Aeronautics on April 3, 2008, GAO
     highlighted cost and schedule risks resulting from requirement changes in NASA’s Ares I
     Crew Launch Vehicle and the Orion Crew Exploration Vehicle Projects. 16 Likewise, the
     LDCM Project has incurred cost increases and may experience schedule delays
     associated with spacecraft modifications needed to accommodate a change in baseline,
     system-level requirements after NASA awarded the spacecraft contract. NASA awarded
     the firm-fixed price contract for the spacecraft in April 2008 through the Agency’s Rapid
     Spacecraft Development Office (RSDO). At the time of award, LDCM Project
     management designed or “scarred” the spacecraft to account for the possible late addition
     of a microbolometer-based—not a cryo-cooled—thermal instrument. Yet, in August
     2008, 4 months after award, NASA management made the decision to use the cryo-
     cooled TIRS instrument, which required a substantial redesign of the spacecraft in
     development. Consequently, spacecraft costs increased as a result of NASA-directed
     design changes.

     Project management estimated that the addition of cryo-cooled thermal imaging
     capability to LDCM would cause spacecraft modification costs, which do not include any
     costs associated with the development of the TIRS instrument, of $11 million to
     $20 million and possible delays to an already delayed mission. However, historically,
     NASA has made changes to Project requirements, resulting in cost and schedule impacts.
     The following table illustrates NASA’s RSDO spacecraft cost growth and launch
     readiness date (LRD) delays for similar projects with the respective reason or cause for
     each. Each projects’ initial projection of cost and schedule was significantly less than the
     actual.




     16
          Government Accountability Office. “NASA: Ares I and Orion Project Risks and Key Indicators to
          Measure Progress” (GAO-08-186T, April 3, 2008). Ares I and Orion Projects are being developed by
          NASA’s Exploration Systems Mission Directorate under the Constellation Program.



16                                                                                    REPORT NO. IG-09-021
RESULTS



               Table. Rapid Spacecraft Development Office Spacecraft Development History

                     Spacecraft Development Cost        Launch Readiness Date Delay
                              ($ Millions)             (Months from Project Inception)
                                                        Planned        Actual                Reason/Cause
   Spacecraft       Estimate   Actual    Difference      ATP            ATP     Delay      of Cost and Delay
 ICESat (Ice,        $39.40    $68.20      $28.80         41.0          60.0     19      Technical changes/
 Cloud, and Land                                                                         adding mission
 Elevation                                                                               operations scope, and
 Satellite)                                                                              GFE instrument delays
 GLAST               $55.60    $102.60     $47.00         48.5          70.0    21.5     Immature spacecraft
 (Gamma-Ray                                                                              requirements definition
 Large Area                                                                              when delivery order
 Space                                                                                   awarded
 Telescope)
 Swift (Gamma-       $36.30    $46.40      $10.10         46.7          58.3    11.6     GFE instrument delays
 Ray Burst
 Detecting
 Satellite)
 NPOESS              $75.35    $153.87     $78.52         50.0          96.0     46      Changes in capabilities
 Preparatory                                                                             and lateness of
 Project                                                                                 instruments
 LDCM                $116.30    TBD         TBD           38.0         TBD      TBD      Change/adding
                                                                                         instrument
                                                                                         requirements after
                                                                                         delivery order
                                                                                         awarded
   ATP - Authority to Proceed; GFE - Government furnished equipment.

   Throughout the formulation phase of the acquisition, LDCM Project management briefed
   NASA management on the implementation risks of changing baselined system-level
   requirements and integrating a cryo-cooled thermal instrument after contract award.
   Specifically, Project management reported the following to Goddard and Agency
   Program Management Councils:

        •      Given that the cryo-cooled TIRS instrument design is too immature to enable
               detailed definition of the spacecraft interface in time to support the spacecraft
               development schedule, there is a possibility that there may be substantial
               spacecraft or TIRS redesign if the LDCM is directed to fly TIRS. The scarring of
               the spacecraft as defined in the contract is based on micro-bolometer technology,
               which did not involve cryo-cooler or larger than expected radiators.

        •      Latest TIRS design exceeds project-required volume and intrudes into the OLI
               field of view. Given that a TIRS instrument may be located within thermal line-
               of-sight of the OLI, there is a possibility of a significant redesign to the OLI
               thermal control system.

   The Project’s preliminary integrated master schedule indicates that the late manifestation
   of this requirement has resulted in TIRS having the latest delivery time of all mission


REPORT NO. IG-09-021                                                                                           17
                                                                                             RESULTS



     elements and could therefore cause the entire LDCM Project schedule and launch to be
     delayed. Accordingly, on February 12, 2009, an independent review team was convened
     by the Earth Systematic Missions Program Manager. Their Assessment Summary,
     March 6, 2009, states that the TIRS development schedule is “very aggressive.”
     However, the review team also reported that “[t]he plan presented showed that risk, cost
     and schedule are already being actively managed.” The independent review team made
     several recommendations, to include the implementation of Earned Value Management
     for TIRS development and a plan to address funding for the instrument, to “increase the
     probability of a successful development effort meeting schedule and cost constraints.”

Recommendations, Management’s Response, and Evaluation of
  Management’s Response

Recommendation 3. The Associate Administrator for SMD should request an independent
analysis of the impact on the spacecraft’s development cost and schedule due to the late
change of LDCM requirements.

     Management’s Response. The Associate Administrator for SMD concurred, stating that
     an independent analysis of LDCM’s development cost and schedule will be conducted in
     preparation for Key Decision Point-C, scheduled for October 2009.

     Evaluation of Management’s Response. We consider management’s proposed action
     to be responsive. The recommendation is resolved and will be closed upon completion
     and verification of management’s corrective action.

Recommendation 4. The Associate Administrator for SMD should issue guidance affirming
the need for Space Flight Programs and Projects to finalize system-level requirements prior
to contract award.

     Management’s Response. The Associate Administrator for SMD concurred with our
     recommendation. He noted that the requirement to quantify technical and programmatic
     risks is codified in NPR 7120.5D, “NASA Space Flight Program and Project
     Management Requirements,” March 6, 2007, and stated that SMD’s Management
     Handbook, released in February 2008, affirms the need for all programs and projects to
     follow that NPR through all mission phases and further noted that risk management
     approach, risk identification, and risk mitigations will be critically evaluated at all major
     program/project reviews and key decision points. In addition, he stated that the thermal
     infrared sensor (TIRS) requirements issue was identified and purposely mitigated by
     structuring the LDCM spacecraft request for proposal so as not to preclude its late
     introduction.

     Evaluation of Management’s Response. We consider management’s actions,
     specifically, issuance of the Management Handbook affirming the provisions of
     NPR 7120.5D, to be responsive, and the recommendation is closed.




18                                                                            REPORT NO. IG-09-021
RESULTS



Recommendation 5. The Associate Administrator for SMD should re-emphasize the
provisions of NPR 7123.1A, “NASA Systems Engineering Processes and Requirements,”
which require that NASA programs and projects adequately consider stakeholder
expectations and user community interests prior to contract award for development of any
major mission element.

   Management’s Response. The Associate Administrator for SMD concurred with the
   recommendation, noting that SMD is committed to working with the stakeholder
   community to develop missions that are responsive to scientific and other needs, as
   detailed in the SMD Management Handbook, published in 2008, and consistent with
   NPR 7123.1A. He further noted that the decision to make fundamental changes to a
   mission (e.g., descopes, launch slips, or cancellations) resides with SMD management,
   not the program or project, taking into consideration all stakeholder expectations,
   including congressional direction, and community interest. For LDCM, the Landsat
   Science Team was specifically tasked to prioritize a thermal imaging capability vis-à-vis
   a launch readiness date and the higher priority was placed on an earlier launch readiness
   date.

   Evaluation of Management’s Response. The 2008 issuance of SMD’s Management
   Handbook includes numerous mechanisms for working with stakeholders. In 2002,
   despite LDCM Project management’s analyses and recommendations and stakeholder
   interest, the then-Associate Administrator for Earth Science removed the thermal imaging
   capability from the LDCM requirements baseline on the basis of assessments provided by
   potential commercial partners. Issuance of the SMD Management Handbook is
   consistent with NPR 7123.1A and adequately emphasizes SMD’s commitment to
   working with the stakeholder community. We consider management’s actions to be
   responsive, and the recommendation is closed.




REPORT NO. IG-09-021                                                                           19
APPENDIXES




                                                                           APPENDIX A


Scope and Methodology

   We performed this audit from August 2008 through August 2009 in accordance with
   generally accepted government auditing standards. Those standards require that we plan
   and perform the audit to obtain sufficient, appropriate evidence to provide a reasonable
   basis for our findings and conclusions based on our audit objectives. We believe that the
   evidence obtained provides a reasonable basis for our findings and conclusions based on
   our audit objectives.

   We gathered data and information from NASA Project personnel, NASA users of
   Landsat data, and external users to determine whether the Project was meeting, and
   would continue to meet, the intent, goals, and other provisions of the LRSP Act of 1992.
   We reviewed the NASA acquisition strategy used to acquire prior Landsats and compared
   it to the acquisition strategy for LDCM to determine whether there were any risks
   associated with the established acquisition and management processes. The acquisition
   strategy detailed in the acquisition plan was consistent with the memorandum of
   understanding between NASA and U.S. Geological Survey (USGS) for LDCM. The
   acquisition strategy also addressed the possibility that a thermal infrared sensor (TIRS)
   instrument might be incorporated onto the LDCM mission during the development phase,
   even though NASA initially decided to forego including the legacy thermal capability,
   contrary to the data continuity goals of the LRSP Act of 1992.

   We obtained, reviewed, and summarized the applicable provisions of the Land Remote
   Sensing Policy (LRSP) Act of 1992, NASA Authorization Acts of 2008 and 2009,
   LDCM Project plan, and pertinent policy documents. We evaluated and compared the
   mission, objectives, and goals of the LDCM Project, as stated in the Project plan with the
   goals set forth in the LRSP Act of 1992 and the NASA Authorization Act of 2008. We
   interviewed Project personnel to determine whether the Project was meeting, and would
   continue to meet, the intent, goals, and other provisions of the Acts. We reviewed
   documentation of Landsat 7 Life Projections, the impact of the scan line corrector failure,
   and Landsat Data Gap Study Team analyses. We obtained Landsat data use information
   from external users’ Web sites to determine how they are using Landsat data, the
   uniqueness of Landsat, and the importance of thermal imaging to their operations. We
   interviewed NASA users of Landsat data to determine if they could use sources other
   than Landsat for their needs and what sources they would use if Landsat 5 and Landsat 7
   failed before LDCM’s launch readiness date. We evaluated current projected milestones
   for LDCM and most likely time of failure for Landsat 5 and Landsat 7 to determine
   potential gap in image coverage. We interviewed Landsat Data Gap Study Team
   personnel and obtained supporting documentation to determine whether the team is
   adequately evaluating the feasibility of acquiring data from alternate data sources in the
   likely event of a gap in Landsat satellite coverage.


REPORT NO. IG-09-021                                                                             21
                                                                                                  APPENDIX A



     We obtained and reviewed the LDCM Project acquisition plan and related acquisition
     documentation. We compared the roles and responsibilities of management documented
     in the acquisition plan to those of the Interagency Agreement and NASA policies. We
     reviewed the NASA-USGS Interagency Agreement for LDCM to determine what
     changes have occurred in NASA’s roles and responsibilities. We attempted to identify
     NASA and other agency projects that used the selected acquisition strategy and contract
     type. We reviewed the acquisition cost and development schedule for all elements of the
     LDCM Project. We reviewed the Earned Value Management System and data as it
     pertains to the OLI contract. We reviewed the results and recommendations of the
     LDCM Standing Review Board for the System Requirements Review, Mission Definition
     Review, and Preliminary Non-Advocate Review.

     We obtained and reviewed the National Science and Technology Council (NSTC), an
     Executive Office of the President, “A Plan for a U.S. National Land Imaging Program,”
     August 2007 report; “NASA Report to Congress Regarding Landsat Data Continuity
     Mission (LDCM) data Continuity,” April 2008; and Presidential Decision
     Directive/NSTC-3 “Landsat Remote Sensing Strategy,” May 1994; and other
     documentation to determine NASA’s role regarding the various Landsat satellites. We
     interviewed NASA users of Landsat data to determine if NASA would be adversely
     impacted if Landsat became an operational program with DOI as the lead agency. We
     interviewed the USGS/DOI representative to determine the status of National Land
     Imaging Program (NLIP).

     Earned Value Management. We found that management had implemented an effective
     Earned Value Management System to improve management of cost and schedule risks.
     LDCM Project management’s Earned Value Management System, managed through the
     Defense Contract Management Agency, formally complied with the standards of the
     American National Standards Institute/Electronic Industries Alliance - 748 (ANSI/EIA-
     748), “Standard for Earned Value Management Systems,” June 1998, 17 as required by
     NPR 7120.5D, “NASA Space Flight Program and Project Management Requirements,”
     March 6, 2007. Project management also implemented Earned Value Management in
     accordance with the, “LDCM Project Plan,” May 2008, 18 as required by NPR 7120.5D.

     Use of Computer-Processed Data. We used computer-processed data for historical
     Rapid Spacecraft Development Office Spacecraft cost growth and LRD delays, which we
     verified to records maintained by the LDCM Deputy Resource Manager. We also used
     computer-processed data from Review Item Discrepancies (RIDs) tracked by Center
     management. We tracked each of the 28 RIDs and issues through the risk identification,
     reporting, and mitigation process. We believe the data to be reliable based upon our
     confirmation of spacecraft costs and tracked RIDs and issues.


     17
          ANSI/EIA-748-B was published in June 2007.
     18
          The Project also implemented the Earned Value Management System in accordance with the “Technical,
          Schedule and Cost Control Plan,” May 5, 2008, a document referenced in the “LDCM Project Plan.”



22                                                                                    REPORT NO. IG-09-021
APPENDIX A



Review of Internal Controls

   We identified and tested LDCM acquisition processes for compliance with NASA’s
   policies and procedures. We reviewed Goddard Space Flight Center (Goddard)
   procedures for controlling LDCM risks and for conducting critical milestone reviews of
   contractor performance. We found that LCDM Project management effectively
   identified, reported, and mitigated LDCM acquisition risks. Our review of the Project’s
   internal controls found that Project management established a risk assessment process
   that complied with NASA Procedural Requirements (NPR) 8000.4, “Risk Management
   Procedural Requirements,” April 25, 2002. As of February 5, 2008, Project management
   managed 19 unique review item discrepancies and 9 issues (a total of 28 unique risks),
   which they reported to Goddard management. We tracked the 28 risks through the risk
   identification, reporting, and mitigation process. The Project’s Risk Management Board
   unanimously closed 8 of the 28 items, leaving 20 open or ongoing items to be addressed
   in Phase B of the Project’s life cycle reviews. We did not identify any NASA internal
   control weaknesses

Prior Coverage

   During the last 5 years, the Government Accountability Office (GAO) and the NASA
   Office of Inspector General (OIG) have issued four reports of particular relevance to the
   subject of this report. Unrestricted reports can be accessed over the Internet at
   http://www.gao.gov (GAO) and http://oig.nasa.gov/audits/reports/FY09 (NASA).

   Government Accountability Office

   “Military Space Operations: Common Problems and Their Effects on Satellite and
   Related Acquisitions” (GAO-03-825R, June 2, 2003)

   “NASA: Ares I and Orion Project Risks and Key Indicators to Measure Progress”
   (GAO-08-186T, April 3, 2008)

   “Geostationary Operational Environmental Satellites: Acquisition Is Under Way, but
   Improvements Needed in Management and Oversight” (GAO-09-323, April 2, 2009)

   National Aeronautics and Space Administration

   Our office issued “More Stringent Entrance Criteria Needed for Project Life-Cycle
   Reviews” (Report No. IG-09-004, October 31, 2008). We determined that the Orion
   Project Office (Project Office) conducted a Phase A life-cycle review with a vehicle
   configuration (606 vehicle) that was not at the proper maturity level to proceed to Phase
   B. Specifically, a required engineering design analysis conducted prior to the life-cycle
   review disclosed that the vehicle configuration required a reduction in weight, power, and
   instrumentation. However, instead of delaying the Phase A life-cycle review until the
   correct vehicle configuration (607 vehicle) could be reviewed, the Project Office
   proceeded with a nonconforming vehicle. As a result, a significant portion of the vehicle


REPORT NO. IG-09-021                                                                            23
                                                                                       APPENDIX A



     configuration that eventually did proceed to Phase B did not receive the benefit of a
     Phase A life-cycle review, nor was it completely evaluated for compliance with
     requirements.

     Our office also issued “Final Memorandum of NASA’s Management of the Flight Project
     for the Geostationary Operational Environment Satellite Series-R Program” (Report No.
     IG-08-006, December 19, 2007). We determined that the responsible NASA Program
     Management Councils for the GOES-R Program was effectively reviewing project issues
     and progress and that NASA’s GOES-R Flight Project Office had procedures and
     processes in place to adequately identify, mitigate, and report technical risks in
     accordance with NASA policy. However, we found that NASA’s ability to effectively
     procure, manage, and execute the GOES-R Flight Project was impeded by the level of
     oversight provided by NOAA and Commerce. Specifically, increased management
     oversight by NOAA and Commerce delayed the release of requests for proposals for the
     GOES-R spacecraft. The delays were caused by Commerce implementing processes that
     were in conflict with the current memorandum of understanding (MOU) between
     Commerce and NASA, dated June 15, 2007. The MOU states that guidance for GOES-R
     Program processes will be derived from NASA Procedural Requirements (NPR)
     7120.5D, “NASA Space Flight Program and Project Management Requirements,”
     March 6, 2007. The process followed for the spacecraft request for proposal conflicted
     with NPR guidance and the resultant delays increased the risks to GOES-R Program
     development and the GOES-R launch schedule.




24                                                                          REPORT NO. IG-09-021
APPENDIX B




                       MANAGEMENT COMMENTS




REPORT NO. IG-09-021                         25
              APPENDIX B




26   REPORT NO. IG-09-021
APPENDIX B




REPORT NO. IG-09-021   27
                                                                                 APPENDIX C




                                                           REPORT DISTRIBUTION

National Aeronautics and Space Administration

     Administrator
     Deputy Administrator
     Chief of Staff
     Assistant Administrator for Science Mission Directorate

Non-NASA Organizations and Individuals

     Office of Management and Budget
        Deputy Associate Director, Energy and Science Division
            Branch Chief, Science and Space Programs Branch
     Government Accountability Office
        Director, Defense, State, and NASA Financial Management, Office of Financial
           Management and Assurance
        Director, NASA Issues, Office of Acquisition and Sourcing Management

Congressional Committees and Subcommittees, Chairman and
  Ranking Member

     Senate Committee on Appropriations
        Subcommittee on Commerce, Justice, Science, and Related Agencies
     Senate Committee on Commerce, Science, and Transportation
        Subcommittee on Space, Aeronautics, and Related Sciences
     Senate Committee on Homeland Security and Governmental Affairs
     House Committee on Appropriations
        Subcommittee on Commerce, Justice, Science, and Related Agencies
     House Committee on Oversight and Government Reform
        Subcommittee on Government Management, Organization, and Procurement
     House Committee on Science and Technology
        Subcommittee on Investigations and Oversight
        Subcommittee on Space and Aeronautics




28                                                                    REPORT NO. IG-09-021
Major Contributors to the Report:
   Raymond Tolomeo, Director, Science and Aeronautics Research Directorate
   Tony Lawson, Project Manager
   Gregory Lokey, Auditor
   Candice Dunn, Auditor
   Cindy Stein, Aerospace Technologist
   Janet Overton, Editor




REPORT NO. IG-09-021                                                         29
                                                                                  SEPTEMBER 2, 2009
                                                                        REPORT No. IG-09-021




                                                                                 OFFICE OF AUDITS

                                                                 OFFICE OF INSPECTOR GENERAL




ADDITIONAL COPIES
Visit http://oig.nasa.gov/audits/reports/FY09 to obtain additional copies of this report, or contact the
Assistant Inspector General for Auditing at 202-358-1232.

COMMENTS ON THIS REPORT
In order to help us improve the quality of our products, if you wish to comment on the quality or
usefulness of this report, please send your comments to Mr. Joel Rodriguez, Quality Assurance Division,
at Joel.Rodriguez@nasa.gov or call 202-358-4440.

SUGGESTIONS FOR FUTURE AUDITS
To suggest ideas for or to request future audits, contact the Assistant Inspector General for Auditing.
Ideas and requests can also be mailed to:
      Assistant Inspector General for Auditing
      NASA Headquarters
      Washington, DC 20546-0001

NASA HOTLINE
To report fraud, waste, abuse, or mismanagement, contact the NASA OIG Hotline at 800-424-9183 or
800-535-8134 (TDD). You may also write to the NASA Inspector General, P.O. Box 23089, L’Enfant
Plaza Station, Washington, DC 20026, or use http://oig.nasa.gov/hotline.html#form. The identity of
each writer and caller can be kept confidential, upon request, to the extent permitted by law.
